Case: 1

2285

Date Filed: 02/13/2020

F. ,:lof7
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-12285
Non-Argument Calendar
D.C. Docket No. 9:18-cv-80280-DMM

GABRIEL LAMAR OLIVER,
Petitioner-Appellant,
versus

STATE OF FLORIDA,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.

Appeal from the United States District Court
for the Southern District of Florida
(February 13, 2020)
Before ROSENBAUM, BRANCH, and FAY, Circuit Judges.
PER CURIAM:

1

Case: 1

2285

Date Filed: 02/13/2020

F

: 2 of 7

Gabriel Oliver, a Florida prisoner proceeding pro se, appeals the district
court’s sua sponte dismissal of his 28 U.S.C § 2254 petition as untimely after the
court took judicial notice of dates derived from state-court records of Oliver’s
criminal and post-conviction proceedings. Oliver argues that his petition is not timebarred and that the district court should have addressed the merits of his habeas
petition.
We review for an abuse of discretion a district court’s decision to take judicial
notice of a fact. Paez v. Sec’y, Fla. Dep’t of Corr., No. 16-15705,

F.3d

2020 WL 63290, at *2 (11th Cir. Jan. 7, 2020). We likewise review for an abuse of
discretion the district court’s decision to sua sponte raise a statute-of-limitations
defense. Id. at *2.
We first consider whether the district court abused its discretion by taking
judicial notice of Oliver’s state-court records. Federal Rule of Evidence 201 permits
a court to “judicially notice a fact that is not subject to reasonable dispute because it
. . . can be accurately and readily determined from sources whose accuracy cannot
reasonably be questioned.” Fed. R. Evid. 201(b)(2). “State court records of an
inmate’s postconviction proceedings generally satisfy this standard.” Paez, 2020
WL 63290, at *2.
In Paez, a magistrate judge took judicial notice of dates from a § 2254
petitioner’s state-court online docket records in recommending the sua sponte
2

Case: 1

2285

Date Filed: 02/13/2020

F

.: 3 of 7

dismissal of the § 2254 petition, and the district court adopted that recommendation.
Id. at *1-2. On appeal, we determined that the dates from the state-court online
dockets were judicially noticeable facts under Rule 201. Id. at *2-3. While we
cautioned that “proper safeguards” should be followed when taking judicial notice,
we concluded that such safeguards were followed in that case because the petitioner
had an opportunity to object to the magistrate judge’s report and recommendation,
and he did not ask to be heard, did not dispute the accuracy of the docket entries,
and gave no indication that he lacked the ability to dispute the docket sheets due to
a lack of access. Id. at *3. We therefore held that the district court properly noticed
the state-court docket sheets. Id.
The district court here likewise properly took judicial notice of dates from the
state-court online docket sheets and other state-court records. As in Paez, the dates
“constitute judicially noticeable facts under Rule 201,” and the court followed proper
safeguards in taking judicial notice. Id. at *2-3. The magistrate judge made the
documents part of the record, and Oliver never alleged that he did not receive them.
Oliver also had the opportunity to object to the magistrate judge’s report and
recommendation, but he did not make any specific objections, dispute the accuracy
of the dates that the magistrate judge used, or otherwise ask to be heard on the issue.
Accordingly, the district court did not abuse its discretion by taking judicial notice
of the state-court records. See id. at *3.
3

Case: 1

2285

Date Filed: 02/13/2020

F

: 4 of 7

Next, we address whether the district court abused its discretion by dismissing
sua sponte Oliver’s § 2254 petition as untimely without ordering the State to
respond. Rule 4 of the Rules Governing Section 2254 Proceedings “requires district
courts to dismiss § 2254 petitions without ordering the State to respond ‘ [i]f it plainly
appears from the petition and any attached exhibits that the petitioner is not entitled
to relief.’” Id. at *3 (quoting Rules Governing § 2254 Cases, Rule 4).
We recently held in Paez that district courts are authorized to sua sponte
dismiss a § 2254 petition if the petition’s untimeliness is apparent from the face of
the petition itself. See id. at *4-5. We explained that the text of Rule 4 did not
restrict summary dismissal to merits-based deficiencies. Id. at *4. Thus, procedural
bars, like untimeliness, could lead a district court to conclude that the petitioner is
plainly “not entitled to relief.” Id. In support of that plain-text reading, we also cited
the Advisory Committee Notes to Rule 4, relevant Supreme Court precedent, and
caselaw from our sister Circuits. See id. at *4-5. We indicated, however, that sua
sponte dismissal for untimeliness may be authorized only if the petitioner has “notice
and opportunity to explain why his petition was timely.” Id. at *5.
Based on this construction of Rule 4, we concluded that the district court in
that case did not abuse its discretion by summarily dismissing a § 2254 petition for
untimeliness. Id. We explained that the petitioner had ample notice and opportunity
to explain why his petition was timely in the form petition and again when he had
4

Case: 1

2285

Date Filed: 02/13/2020

F

5 of 7

an opportunity to respond to the magistrate judge’s recommendation that his petition
be summarily dismissed as untimely. Id. We also noted that the state was notified
of the court’s action and had an opportunity to inform the court of its intent to waive
the timeliness defense. Id. Because the state remained silent and the untimeliness
of the petition was uncontested, we concluded that sua sponte dismissal was not an
abuse of discretion. Id.
Here, the district court did not abuse its discretion when it dismissed Oliver’s
§ 2254 petition as untimely without ordering the state to respond. Like the petitioner
in Paez, Oliver had ample notice and opportunity in the form petition and again when
he had an opportunity to respond to the magistrate judge’s recommendation that his
petition be summarily dismissed as untimely, to explain why his petition was timely.
See id. In addition, the state was notified of the court’s action and did not indicate
an intent to waive the timeliness defense. See id.
Unlike the petitioner in Paez, Oliver contests the untimeliness of his petition.
Specifically, Oliver contends that his petition was timely because he was resentenced
in August 2013, when a state court removed his prison-releasee-reoffender (“PRR”)
designation. But even assuming that Oliver’s time to file his § 2254 petition
restarted in August 2013, the record still plainly shows he is not entitled to relief.
Under 28 U.S.C. § 2244, a state prisoner must file his or her § 2254 petition
within one year of, among other trigger dates not relevant here, “the date on which
5

Case: 1

1285

Date Filed: 02/13/2020

F

:6of7

the judgment became final by the conclusion of direct review or the expiration of the
time for seeking such review.” 28 U.S.C. § 2244(d)(1). That limitations period does
not run—is “tolled,” in other words—during times when “a properly filed
application for State post-conviction or other collateral review with respect to the
pertinent judgment or claim is pending.” 28 U.S.C. § 2244(d)(2).
As the magistrate judge explained, Oliver’s state records show that more than
one year passed between the date his original criminal judgment became final,
December 20, 2006, and the date he filed his initial motion for postconviction relief
in state court, May 1,2008. So the one-year federal statute of limitations had expired
before Oliver filed his first motion for postconviction relief. Several years later, on
August 12, 2013, a state court removed his PRR designation. Then, Oliver filed a
state-court motion for postconviction relief on July 24, 2014, which was finally
resolved on February 26, 2016, and a state-court motion to correct illegal sentence
on November 21, 2016, which was finally resolved on January 24, 2018.
Oliver claims that a “new 2 year[] clock” started when the state court removed
his PRR designation in August 2013. But as the magistrate judge observed, the twoyear period Oliver cites applies to postconviction motions under Rule 3.850, Fla. R.
Crim. P. But a one-year period applies to his § 2254 petition. See 28 U.S.C.
§ 2244(d)(1). And the magistrate judge calculated that, even assuming that the
removal of Oliver’s PRR designation restarted the one-year federal limitations
6

f
*Vj

Case: 1

2285

Date Filed: 02/13/2020

P

2 7 of 7

period and that Oliver’s later state-court motions tolled the limitations period,
Oliver’s § 2254 petition was still untimely because 382 days elapsed untolled
between the 2013 resentencing and the filing of his current § 2254 petition. Oliver
does not dispute the magistrate judge’s calculations, and we cannot see any error in
the magistrate judge’s analysis. Nor can we say that the magistrate judge erred in
finding that Oliver did not establish entitlement to equitable tolling, which he does
not address on appeal.
Accordingly, Oliver’s § 2254 petition and the state-court records of which the
district court properly took judicial notice plainly established that Oliver was not
entitled to relief under § 2254 because his petition was untimely. See Paez, 2020
WL 63290, at *5. Because Oliver had notice and an opportunity to contest whether
his petition was timely, the court was authorized to sua sponte dismiss his § 2254
petition. See id.
AFFIRMED.

4

I

7

LI

Case: V

"'285

Date Filed: 09/28/2020

r

?: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-12285-EE

GABRIEL LAMAR OLIVER,
Petitioner - Appellant,
versus

STATE OF FLORIDA,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents - Appellees.

Appeal from the United States District Court
for the Southern District of Florida
BEFORE: ROSENBAUM, BRANCH and FAY, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing CONSTRUED from Appellant’s motion to Alter or Amend
Judgment and Motion for Reconsideration is DENIED.

ORD-41

-

JOHN C. SHOCK
fy'jfe G Commission# GG 200086

No.
L.

egal Mail

....

‘

Provktodto

Blaekwater River

3ESa®SB£

G-

t

£**** Wirch A2t22
Bonded Thro Trey Fin Inannce 810-3*6-7*131

J=^

IN THE
SUPREME COURT OF THE UNITED STATES

VM if

— PETITIONER

(Your Name)

— RESPONDENT(S)
PROOF OF SERVICE

^tWav\ \ fivoaC
f
do swear or declare that on this date,
£&$^ntvV\jPC
20 ID, as required by Supreme Court Rule 29 I have
t

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

\

^ ca vcW~> cV

^Y\AK\.i

*n

_

YVx.

cs\\A <?Nr\N^A0lTN

v xAvomv

VVa

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

(Signature)

